DOUGLAS N. LETTER

BROOKS M. HANNER

GENERAL COUNSEL

ASSOCIATE GENERAL COUNSEL

TODD B. TATELMAN
PRINCIPAL DEPUTY GENERAL COUNSEL

MEGAN BARBERO

U.S. HOUSE OF REPRESENTATIVES
OFFICE OF GENERAL COUNSEL
219 CANNON HOUSE OFFICE BUILDING
WASHINGTON, DC 20515-6532
(202) 225-9700
FAX: (202) 226-1360

DEPUTY GENERAL COUNSEL

JOSEPHINE MORSE
DEPUTY GENERAL COUNSEL

ADAM A. GROGG
ASSOCIATE GENERAL COUNSEL

SARAH E. CLOUSE
ASSOCIATE GENERAL COUNSEL

JONATHAN B. SCHWARTZ
ATTORNEY

January 31, 2020
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street N.E.
Washington, D.C. 20543
Re:

California, et al. v. Texas, et al., No. 19-840

Dear Mr. Harris:
The U.S. House of Representatives is a party to the judgment in the above-captioned case
and is listed in the certiorari petition as a respondent. This letter is to inform you that the House
acquiesces in the petition for a writ of certiorari in this case for the reasons stated in the House’s
own petition for a writ of certiorari in No. 19-841. The House does not intend to file any further
response to the petition in this case, unless requested to do so by the Court.
Thank you very much for your time and assistance on this matter.
Very truly yours,
/s/ Douglas N. Letter
Douglas N. Letter
cc:

Samuel P. Siegel
Deputy Solicitor General
Office of the Attorney General
State of California
Noel J. Francisco
Solicitor General
United States Department of Justice
Kyle D. Hawkins
Solicitor General
Office of the Attorney General
State of Texas
Robert Henneke
Texas Public Policy Foundation
Center for the American Future

